                                  Management Letter OI-10-02

                             Proactive Holdings Security Exercise

The Office of Investigations conducted an unannounced proactive holdings security assessment
designed to test the balance between access to, and security of, our nation’s historical records at
various facilities. Major security lapses were identified and exploited, calling into question the
adequacy of management controls and security measures in place to protect the records of our
democracy. Observations and weaknesses observed were communicated to the Archivist and
management. Currently management is putting together a plan to address the weaknesses noted.
